                                                       u.s. Department of Justice
                                                       United States Attorney
                                                       District of Connecticut
                                                       Co,,",x/icul Financial Center
                                                       157 Orureir   ST~eJ                       (J03) 821-
3700
                                                       PO. Box 182J                        FlU   (203) 773-
5376
                                                       New Haven. Connecticut 06510
,"IVw.usaoj.govlu.Tuolct



FOR llvllviEDIATE RELEASE                              CONTACT:              Tom Carson
~ovember 17,2003                                                             Publlc Information Office
                                                                             (203) 821-3722
                                                                             (203) 996-1393 (cell)

              WATERBURY WOMAN PLEADS GUILTY TO STEALING
                          AMERICORP FUNDS

           Kevin J. O'Connor, United States Attorney for the District of Connecticut, announced today
that BER.:.'\lADETTE TEELE, age 35, of80 Pine Street, Unit #2, Waterbury, Connecticut, pleaded
guilty to theft of government property. The plea of guilty was accepted on November 14, 2003 by
Senior Cnited States District Judge Peter C. Dorsey in federal court New Haven.
           According to docwnents filed in Court and statements at the court hearing, between January,
1999 and December, 1999, the defendant, BERNADETTE TEELE, was a member of the
AmeriCorps program, a Corporation for National and Community Service federal program that
provides Americans with a stipend and/or educational award in exchange for a period of community
service that addresses unmet needs in education, public safety, human services, and the environment.
During the period of TEELE'S membership, full-time participants were additionally entitled to childcare
services through the Corporation if they met certain other eligibility requirements. During the period
during which TEELE was an AmeriCorps member, she received benefits for her five (5) children, but
falsely certified that she received childcare from the providers she identified, keeping a large percentage
of the reimbursed subsidies for herself. Additionally, TEELE falsely certified that she was not receiving
childcare subsidies from any other source during the relevant time frame, when, in ~act, she was
receiving chjldcare subsidies from a State of COIUlecticut Department of Social SeIiVices program. The
 total loss to the federal government is approximately 512,839.36 and the loss to the State of
 Connecticut is approximately $11,640.25.
            TEELE faces up to 10 years' imprisonment and a fine of $250,000 when she is sentenced on
 February 6, 2003.
            The case was investigated by Special Agents of the Corporation for National Service, Office of
 Inspector General in Washington, D.C., with the assistance of the State of Connecticut, Department of
 Social Serv~ces, Client Fraud Investigation Unit. The case is being prosecuted by Assistant United
States Attorney Deborah R. Slater.
